App. 1
NOT RECOMMENDED FOR
FULL-TEXT PUBLICATION
No. 18-2270
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KYLE D. KENNARD,
)
Plaintiff-Appellant, \ ON APPEAL FROM
)
THE UNITED STATES
v.
)
DISTRICT COURT FOR
MEANS INDUSTRIES, ) THE EASTERN DISTRICT
)
INCORPORATED,
OF MICHIGAN
)
Defendant-Appellee. )
ORDER
(Filed Apr. 2, 2019)
Before: KEITH, KETHLEDGE, and THAPAR, Cir­
cuit Judges.
Kyle D. Kennard, proceeding pro se, appeals the
district court’s order denying his motion to set aside its
judgment for fraud on the court pursuant to Rule 60(d)
of the Federal Rules of Civil Procedure. This case has
been referred to a panel of the court that, upon exami­
nation, unanimously agrees that oral argument is not
needed. See Fed. R. App. P. 34(a).
After he had stopped working for Means Indus­
tries, Inc. (Means), and redeemed a $220,000 workers’
compensation claim, Kennard applied for disability re­
tirement benefits. Initially, the district court affirmed

App. 2
Means’s denial of this claim, but we reversed and re­
manded, instructing the district court to award bene­
fits to Kennard. See Kennard v. Means Indus., Inc., 555
F. App’x 555 (6th Cir. 2014). The district court awarded
benefits to Kennard, but it returned the case to the
plan administrator for a determination of the amount
of benefits Kennard was due. After applying an off­
set based on the amount paid for the prior workers’
compensation redemption, the plan administrator con­
cluded that Kennard was not entitled to any amount of
benefits. After the district court affirmed that decision,
Kennard appealed, arguing that the district court vio­
lated our mandate by remanding to the plan adminis­
trator and that Means had forfeited its offset defense.
We rejected both arguments and affirmed. See Ken­
nard v. Means Indus., Inc., 660 F. App’x 333 (6th Cir.
2016).
During the previous proceedings, Kennard was
represented by counsel, but in September 2018, he filed
a pro se motion asking the district court to set aside its
judgment because, according to him, counsel for Means
had committed fraud upon the court. The district court
denied Kennard’s motion as untimely under Rule 60(c).
This appeal followed.
We review the denial of a Rule 60 motion for an
abuse of discretion, and “[a] court abuses its discretion
when it commits a clear error of judgment, such as ap­
plying the incorrect legal standard, misapplying the
correct legal standard, or relying upon clearly errone­
ous findings of fact.” Jones v. III. Cent. R.R., 617 F.3d
843, 850 (6th Cir. 2010) (quoting In re Ferro Corp.

App. 3
Derivative Litig, 511 F.3d 611, 623 (6th Cir. 2008)).
Even if an abuse of discretion occurred, we may never­
theless “affirm a decision of the district court for any
reason supported by the record, including on grounds
different from those on which the district court relied.”
Stein v. Regions Morgan Keegan Select High Income
Fund, Inc., 821 F.3d 780, 786 (6th Cir. 2016).
In his motion, Kennard invoked Rule 60(d), asking
the district court to “set aside a judgment for fraud on
the court.” Fed. R. Civ. R 60(d)(3). But the district court
denied the motion as untimely, applying the one-year
time limit applicable to a Rule 60(b) motion for gardenvariety fraud. By doing so, the district court abused its
discretion because that limit does not apply to a Rule
60(d) motion claiming a fraud on the court, “which has
no time limitation.” Rodriguez v. Honigman Miller
Schwartz & Cohn LLP, 465 F. App’x 504, 508 (6th Cir.
2012).
We nevertheless affirm the denial of Kennard’s
motion because it is apparent from the record that
no fraud on the court occurred. Fraud on the court is
conduct “on the part of an officer of the court” that “is
directed to the judicial machinery itself”; “is intention­
ally false, willfully blind to the truth, or is in reckless
disregard for the truth”; “is a positive averment or a
concealment when one is under a duty to disclose”; and
“deceives the court.” Carter v. Anderson, 585 F.3d 1007,
1011 (6th Cir. 2009). This primarily includes especially
egregious conduct and “such flagrant abuses as bribing
a judge, employing counsel to exert improper influence
on the court, and jury tampering.” Gen. Med., PC. v.

App. 4
Horizon/CMS Health Care Corp., 475 F. App’x 65, 71
(6th Cir. 2012). And generally, “[nondisclosure by a
party or the party’s attorney has not been enough” to
support a finding of fraud on the court. 11 Charles Alan
Wright et al., Federal Practice and Procedure § 2870,
Westlaw (database updated Nov. 2018); see also 49
C.J.S. Judgments § 400, Westlaw (database updated
Mar. 2019) (“[Nondisclosure to the adverse party or
the court of facts pertinent to the matter before it,
without more, does not constitute a fraud on the
court.”); cf. H.K. Porter Co. v. Goodyear Tire & Rubber
Co., 536 F.2d 1115,1118 (6th Cir. 1976) (“Allegations of
nondisclosure during pretrial discovery are not suffi­
cient to support an action for fraud on the court.”).
Put simply, Kennard claims that counsel for Means
defrauded the court by failing to disclose that it had
discussed the setoff issue with Kennard’s attorney dur­
ing a February 2012 phone conference and had entered
into a settlement with former Means employee John
Welch and did not apply the setoff in Welch’s case.
Those failures to disclose are not enough to justify Rule
60(d) relief. And counsel’s conduct was not especially
egregious, nor is there any indication that counsel for
Means had a duty to inform the court about a phone
conference in which Kennard’s attorney participated
or that it had settled a similar case with another for­
mer employee.
Means also asks us to sanction Kennard. See 28
U.S.C. § 1912; Fed. R. App. P.38. Section 1912 permits
us to “adjudge the prevailing party just damages for
his delay, and single or double costs” when affirming

App. 5
the district court’s judgment. Similarly, under Rule 38,
if we “determine!] that an appeal is frivolous, [we] may,
after a separately filed motion or notice from the court
and reasonable opportunity to respond, award just
damages and single or double costs to the appellee.” An
appeal is frivolous when “it is obviously without merit
and is prosecuted for delay, harassment, or other im­
proper purposes.” Uhl v. Komatsu Forklift Co., 512 F.3d
294, 308 (6th Cir. 2008) (quoting Barney v. Holzer
Clinic, Ltd., 110 F.3d 1207, 1212 (6th Cir. 1997)). We
decline to impose sanctions on Kennard because there
is no evidence that he lodged this appeal for an im­
proper purpose and because, as a pro se litigant, he
cannot “be held to the high standards to which mem­
bers of the bar aspire or should aspire.” WSM, Inc. v.
Tenn. Sales Co., 709 F.2d 1084,1088 (6th Cir. 1983).
We AFFIRM the district court’s denial of Kennard’s Rule 60(d) motion, and we DENY Means’s re­
quest for sanctions.
ENTERED BY ORDER
OF THE COURT
/s/ Deb S. Hunt
Deborah S. Hunt, Clerk

App. 6
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
KYLE D. KENNARD,
Plaintiff,
v
MEANS INDUSTRIES, INC.,

Case No. 11-15079
Honorable
Thomas L. Ludington

Defendant.
ORDER DENYING PLAINTIFF’S
MOTION TO REOPEN CASE
(Filed Oct. 12, 2018)
On November 17,2011, Plaintiff Kyle Kennard re­
moved this suit from Saginaw County Circuit Court.
ECF No. 1. Kennard’s complaint sought a judgment
that he was entitled to a disability benefit from his em­
ployer’s Employment Retirement Income Security Act
(ERISA) plan. On June 13, 2013, the Court issued an
opinion and order finding that the ERISA Plan Admin­
istrator’s decision to deny benefits was not arbitrary or
capricious. ECF No. 61. Kennard appealed, and the
Sixth Circuit concluded that the Plan Administrator
had failed to show that jobs existed which Kennard
could perform given his medical limitations. ECF No.
65. The Sixth Circuit remanded and instructed the
Court to “award Kennard disability retirement bene­
fits.” Id. at 6.

App. 7
Although Kennard’s entitlement to disability re­
tirement benefits was thus established, the amount of
the benefit needed to be determined. Accordingly, this
Court remanded to the Plan Administrator to calculate
the amount of benefits Kennard was entitled to. ECF
No. 76. The Plan Administrator concluded that Ken­
nard was not entitled to a benefit because he had re­
ceived a workers’ compensation benefit from Means
that was coordinated with his long-term disability ben­
efit. In other words, the already-received workers’ com­
pensation benefit was set off or credited against the
long-term disability benefit, resulting in a full offset
against the ERISA plan benefit. On July 7, 2015, the
Court issued an opinion and order confirming that the
Plan Administrator’s decision to set off the benefits
was pursuant to the plan provisions. ECF No. 91.
Kennard appealed, arguing that the Court had ig­
nored the Sixth Circuit’s direction to order payment of
benefits when it remanded to the Plan Administrator
for a calculation of benefits. Kennard also argued that
Defendant Means had waived the setoff argument be­
cause it did not raise the argument before the Court
during the original round of briefing on the motion for
summary judgment and because the Sixth Circuit had
rejected the setoff argument in the first appeal. In a
split decision, the Sixth Circuit affirmed. ECF No. 97.
The Sixth Circuit concluded that the Court’s decision
to remand for a calculation of benefits was consistent
with its first order and further held that the setoff de­
fense had not been waived “because Kennard had no­
tice of it and ample opportunity to rebut it.” Id. at 4.

App. 8
Kennard sought review by the United States Supreme
Court, but his petition for a writ of certiorari was de­
nied on April 25, 2017. ECF No. 103.
On October 5, 2018, Kennard filed a motion to
reopen the case. ECF No. 118. He alleges that Defend­
ant Means and its counsel, Masud Labor Law Group
(“Masud”), committed fraud in the case’s prior court
proceedings. He claims that Masud misstated facts to
this Court and to the 6th Circuit about his workers’
compensation redemption and its offset against the
ERISA plan benefit. He further alleges that Masud
withheld information from him and filed motions to
limit discovery in order to restrict information from en­
tering the proceedings.
Under Federal Rule of Civil Procedure 60(b), a
court may grant relief from a final judgment due to
“fraud . . . misrepresentation, or misconduct by an op­
posing party.” Fed. R. Civ. P. 60(b). However, Rule
60(c)(1) requires that the motion be brought “no more
than a year after the entry of the judgment or order or
the date of the proceeding.” Fed. R. Civ. P. 60(c)(1). Ap­
pellate proceedings do not toll this time. Young v. Green
Oak Twp, 2009 WL 817615, *1 (E.D. Mich. 2009); The
Tool Box, Inc. v. Ogden City Corp., 419 F.3d 1084,1088
(10th Cir. 2005).
The judgment dismissing Kennard’s complaint
was entered over three years ago on July 7, 2015. ECF
No. 92. Kennard appealed the decision, but as stated
above, appellate proceedings do not toll the one year

App. 9
time limit. Thus, Kennard’s motion to reopen is un­
timely under Rule 60(b).
Accordingly, it is ORDERED that Plaintiff’s mo­
tion to reopen case, ECF No. 118, is DENIED.
Dated: October 12,2018

s/Thomas L. Ludington
THOMAS L. LUDINGTON
United States District Judge

App. 10
No. 18-2270
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KYLE D. KENNARD,

)

Plaintiff-Appellant, )
v.
MEANS INDUSTRIES,
INCORPORATED,

)
)
)
)

ORDER
(Filed Jun. 3, 2019)

Defendant-Appellee..)
BEFORE: KETHLEDGE and THAPAR, Circuit
Judges.*
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original sub­
mission and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc'
Therefore, the petition is denied.
ENTERED BY ORDER
OF THE COURT
/s/ Deb S. Hunt
Deborah S. Hunt, Clerk
* The third member of the original panel, the Honorable
Damon J. Keith, died on April 28, 2019. This order is entered by
a quorum of the panel. 28 U.S.C. § 46(d).

V

